                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A11110083                                                                      Page 1 ofl




         This case was opened as a proactive investigative review of S-STEM scholarship awards to
         determine whether there is any evidence of waste, fraud or abuse in the S-STEM program. Our
         review identified discrepancies in the use of S-STEM Scholarship award 1 funds at an institution. 2
         The institution returned $47,970.34 to NSF to resolve the matter.

         This case is closed.




         2




NSF OIG Form 2 (11102)
